                             SENSITIVE BUT UNCLASSIFIED




                    UNITED STATES DEPARTMENT OF STATE
                AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL

ISP-I-13-42A                                   Office of Inspections                               September 2013




          Inspection of Embassy Minsk, Belarus




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
General. No secondary distribution may be made, in whole or in part, outside the Department of State or the
Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by the
Inspector General. Public availability of the document will be determined by the Inspector General under the U.S.
Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.

The process for this inspection was unique because of constraints on time and the limited number
of official Americans that the Government of Belarus permits in the country. (See Context Section
of the report.) The OIG team conducted some interviews of both American and locally employed
(LE) staff in Vilnius, Lithuania, a 3.5-hour drive from Minsk. Several members of the team, but
not all, travelled in small groups sequentially to Minsk to conduct the on-site inspection. While in
Minsk, most of the work involved interviewing American and LE, staff, with relatively less time
spent performing a document review




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                  1
Context                                                        2
Executive Direction                                            3
American Staffing                                              4
Policy and Program Implementation                              5
  Reporting and Analysis                                       5
  Foreign Assistance                                           6
  Public Affairs Section                                       6
  Broadcasting Board of Governors                              8
  Consular Operations                                          8
  Nonimmigrant Visas                                          10
Resource Management                                           12
  Management Operations                                       12
  Rightsizing                                                 13
  Financial Management                                        13
  International Cooperative Administrative Support Services   13
  Human Resources                                             13
  General Services                                            14
  Motor Pool                                                  15
  Real Property                                               15
  Facilities Management                                       17
  Equal Employment Opportunity                                17
  Information Management                                      18
Quality of Life                                               20
  Schools                                                     20
  Community Liaison Office                                    20
  Medical                                                     20
  Employee Association                                        20
Management Controls                                           21
  Travel                                                      21
  Cashiering                                                  21
List of Recommendations                                       22
List of Informal Recommendations                              24
Principal Officials                                           25
Abbreviations                                                 26




                                      iii
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


 Key Judgments
     •   Embassy Minsk has been unable to comply with numerous security, consular,
         information technology, reporting, and management requirements primarily because of a
         five-person staffing ceiling imposed by the Government of Belarus.

     •   The chancery is in a seriously degraded condition, necessitating that embassy employees
         work from an annex. A $34 million Bureau of Overseas Buildings Operations
         rehabilitation project, scheduled for 2010, was suspended because of staffing restrictions.
         Without maintenance, the chancery will continue to deteriorate.
[Redacted] (b) (5)




     •   Senior embassy officials have made inappropriate visa referrals. Host government
         limitations on American staff numbers in Minsk have forced most Belarusians to apply
         for visas outside Belarus. With referrals affording the only access to a Minsk interview
         for many visa applicants, the referral program is unusually vulnerable to misuse.

     •   The ratio of local staff to American staff is too high, with 119 locally employed staff
         members supporting 5 U.S. direct hires.

     •   In 2012 the Belarusian Government gave notice that it would not honor the lease on the
         building in which the public affairs section is located beyond March 2014. [Redacted]
                                                     The embassy should terminate th(b) (5)
                                                   [Redacted] (b) (5)
         [Redacted] (b) (5)                                                          e lease and
         relocate the section.


 All findings and recommendations in this report are based on conditions observed during the on-
 site review and the standards and policies then in effect. The report does not comment at length
 on areas where the OIG team did not identify problems that need to be corrected.

 The inspection took place in Washington, DC, between March 25 and April 12, 2013, and
 remotely from Embassy Vilnius, Lithuania, and in Belarus, Minsk, between May 24, 2013, and
 June 7, 2013. Ambassador Robert M. Beecroft (team leader), Lavon Sajona (deputy team
 leader), Richard Behrend, David Davison, Patricia Murphy, Shawn O’Reilly, Donna Roginski,
 Paul Smith, Alexandra Vega, and Timothy Wildy conducted the inspection.




                                         1
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        After the breakup of the Soviet Union in 1991, Belarus became an independent state.
Three years of parliamentary democracy ended with the 1994 presidential election of Alexander
Lukashenko, who remains in office. He has consolidated power through a series of rigged
elections and has ruled the country by suppressing freedom of speech, obstructing peaceful
assembly, and preventing the establishment of an independent judiciary and parliament.

        Relations between the United States and Belarus deteriorated as the latter became
increasingly authoritarian. In 2008 the U.S. ambassador was recalled following the threat of
expulsion. Later that year, the Belarusian Government expelled additional U.S. diplomats,
reducing embassy staff from 35 to 5. That ceiling remains in effect.

        The U.S.-Belarus Democracy and Human Rights Act of 2011 provides the legal
foundation for U.S. policy in support of civil society, human rights, and the democratic
aspirations of the people of Belarus. The United States has also imposed sanctions on Belarus
under several additional laws and executive orders, These sanctions include travel and financial
sanctions and asset freezes against officials who have undermined democratic processes and
against state-owned and other companies that have supported proliferation of weapons of mass
destruction or money laundering. The European Union also maintains a broad range of sanctions
against individuals and firms.

        A chargé d’affaires leads a staff of 4 American and 119 locally employed (LE) staff
members at Embassy Minsk. The U.S. Agency for International Development (USAID) office
and the regional security office (RSO) in Embassy Kyiv provide support for their respective
functions. Embassy Minsk staff members, both American and local, are subject to regular
harassment by the Belarusian security services. American staff residences have been entered
surreptitiously.[Redacted] (b) (5)                                        The embassy and all
U.S. and Belarusian staff are under constant physical surveillance.

         In July 2012 authorities installed police checkpoints at all embassy gates and at the public
affairs office. Police take personal information from both U.S. and Belarusian citizens before
allowing visitors to enter. Except in rare cases, when U.S. Government officials make temporary
visits to Minsk, host-country authorities require that an equivalent number of permanent
American staff members leave the country to maintain the five-person limit. This restriction and
persistent harassment hamper mission operations and program implementation.

       In 2008 embassy staff vacated the unsafe and deteriorating chancery building to work
from annexes. The public affairs section (PAS) operates from a separate building in downtown
Minsk. Government authorities have told the embassy that PAS must vacate that location by
March 2014.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Executive Direction
        To visit Embassy Minsk is to step back in time to an era when American diplomats in
Eastern Europe operated in inhospitable environments. Three of the five American officers do at
least double duty as a result of the five-person cap that the Government of Belarus imposed in
2008. At that time, the Department of State (Department) assumed that the cap was temporary
and that post would resume work at full capacity once bilateral relations returned to normal.
However, the restriction remains in place with little indication of its being lifted any time soon.

        The chargé d’affaires is the only officer with no formal additional functional duties;
however, he acts as backup political/economic officer, press officer, and backup public
diplomacy officer. The political/economic officer is also the de facto deputy chief of mission
(DCM), press officer, and backup consular officer. The management officer also functions as the
post security officer, human resources officer, financial management officer, general services
officer, facilities maintenance officer, backup information management officer (IMO), medical
liaison, occupational health and safety officer, and Equal Employment Opportunity (EEO)
contact. The public affairs officer spends a quarter of her time as the embassy’s sole consular
officer. The IMO serves as backup financial management officer.

       The embassy does not have classified communications. Staff members operate on the
assumption that everything sent on unclassified systems or spoken on the telephone is monitored
by Belarusian security services and other local security agencies.

        In this challenging environment, the chargé d’affaires seeks to improve the atmospherics
of the U.S.-Belarus relationship by focusing on pragmatic steps forward. He has worked to build
trust and understanding where possible, in spite of serious bilateral differences.

       The chargé has worked out practical arrangements whereby Belarusian authorities
provide information on trafficking in persons (TIP), [Redacted] (b) (5)
                                                                                           After
the host government refused to allow small grants recipients and libraries to accept donations
from the embassy, the chargé persuaded Belarusian authorities to lift the prohibition.

        The chargé has also reinforced embassy security measures. When he arrived at post in
2012, access control was haphazard. Badges were not issued to visitors, and the local guard force
used familiarity as a criterion for granting personnel access to the compound. The chargé and
management officer/post security officer moved quickly to implement the required access
control policy and procedures. The chargé has also worked with the Kyiv-based RSO to enhance
mission security.




                                       3
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


American Staffing
        The small American staff has shown creativity and dexterity in its efforts to function in a
challenging environment. From 2008 to 2010, Embassy Minsk had no public diplomacy or
political/economic officers. The Department and embassy then decided to swap the regional
security officer and consular entry-level officer positions for public diplomacy and
political/economic positions. As a consequence, reporting and public diplomacy programs have
increased, but only at the expense of [Redacted] (b) (5)    American citizens services. For the
Embassy to meet   [Redacted] (b) (5)                             standards, it is imperative that
there be a knowledgeable Bureau of Overseas Buildings Operations (OBO) presence in Minsk
for an extended period. However, unless there were exceptions to the staffing limit, the
Belarusian Government would count an OBO presence against the five-person ceiling, requiring
the removal of one of the current five American staff members.

         If the Belarusian Government relaxes the ceiling even slightly, questions will arise about
the appropriate mix of functional positions for six, seven, or eight American employees. Because
Embassy Minsk cannot comply with functional requirements at current or incremental staffing
levels, the result would be a choice among unsatisfactory alternatives. The embassy favors
adding a consular officer as a sixth position, partly to relieve the public diplomacy officer of her
consular responsibilities and partly with the expectation that additional visa services could
induce positive reciprocity from the host government. The question of whether additional visa
services are the leading priority demands scrutiny as part of a broader policy review to address
the question of what number and functional mix of American employees at Embassy Minsk best
advances U.S. goals.

       The Department’s 1 Foreign Affairs Manual (FAM) 014.1 a. sets the following as a
general organizational objective: achieving a proper balance among mission needs, efficiency of
operations, and effective employee utilization. This inspection report can inform a policy review
of American staff composition that determines the proper balance.

Recommendation 1: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Minsk, should undertake a review that focuses on the connection between U.S. policy
objectives in Belarus and American staffing assignments and priorities at Embassy Minsk.
(Action: EUR, in coordination with Embassy Minsk)




                                       4
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting and Analysis

        The embassy’s reporting and analysis inform the Department’s understanding of political
and economic conditions in Belarus. The chargé d’affaires and a small political/economic section
(a single American officer and three LE staff members) produce a high volume of quality
reporting. They contend with severe restrictions placed on the embassy’s access to host-
government officials by drawing on open sources and engaging an extensive range of contacts in
the diplomatic community, international organizations, and Belarusian society. They also
communicate frequently with accessible officials and have sought, with some success, to expand
access and raise the level of dialogue. Coverage includes economic developments, foreign
relations, and human rights. Most reporting consists of news accompanied by embassy
commentary. Officers travel occasionally from Minsk to Vilnius to produce classified analyses
of political, economic, and social issues. Washington consumers hold these products in high
regard, as they frequently contain details and insights not available elsewhere.

Reporting Requirements

        Embassy Minsk is overburdened with reporting requirements. Some are nondiscretionary
and relevant directly to U.S. interests in Belarus. However, many of the instructions the embassy
receives address global and regional issues for which there is little common interest or basis for
discussion with the Government of Belarus. The embassy sensibly ignores some of these
instructions, and the Department’s country desk tries to filter certain taskings, but the process is
time consuming and wasteful. In one instance, the embassy received a rebuke for an overdue
response to a demarche instruction on an ocean fish species—not an issue that preoccupies
Belarusian authorities (the country has no coastline) or constitutes a basis for bilateral
cooperation. Placing Minsk on MINIMIZE 1 would relieve the embassy of indiscriminate
taskings to multiple posts. Under MINIMIZE, tasking Minsk would require an affirmative
decision of a senior official in the Bureau of European and Eurasian Affairs.

Recommendation 2: The Bureau of European and Eurasian Affairs should request that the
Department of State place Embassy Minsk on MINIMIZE. (Action: EUR)

Non-Record Messages

       Federal Records Act regulations 2 and 5 FAM 443.2 define categories of communications
that must be preserved. Embassy Minsk occasionally uses non-record email to communicate
information that includes these categories, such as reports of meetings with senior officials. The
embassy also employs non-record email to limit distribution to American staff. However, it is
possible to achieve the same result by selecting the appropriate TAGS 3 on record emails and



1
  Department status that reduces routine communications to a post and requires senior-level authorization for
outgoing communications to that post.
2
  36 CFR 1222.22.
3
  Labels that indicate the subject matter of cables.
                                            5
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

adjusting State Messaging and Archive Retrieval Toolset 4 profiles for LE staff members to block
access to such messages in the application’s archive.

           Informal Recommendation 1: Embassy Minsk should comply with Department of State
           requirements for preservation of email records, using TAGS and adjusting employee
           profiles for State Messaging and Archive Retrieval Toolset access as necessary to control
           internal distribution.

Foreign Assistance

       Government of Belarus restrictions make the provision of assistance to nongovernmental
organizations and other elements of civil society extremely challenging. These issues are
discussed in the classified annex to this report.

Public Affairs Section

       PAS works in an especially hostile environment. The Belarusian Government controls the
media, which project negative images of the United States, and impedes public diplomacy
programs at every turn. Nonetheless, PAS provides accurate information about the United States,
develops programs, and provides assistance to civil society. The Belarusian Government has
given PAS a March 2014 deadline for vacating its current offices, located in central Minsk, 15
minutes from the embassy.

        Prior to the 2008 drawdown, 2 American officers and 18 LE staff members worked in the
section. Today, there is one public affairs officer who divides her time between PAS and the
consular operation. She cannot give her full attention to either section, a situation that creates a
number of problems, including staff supervision. The political/economic section head provides
some assistance by overseeing the section’s media reporting and two LE staff members who
work in the media unit.

Educational and Cultural Unit

        The embassy has a small Fulbright program. The FY 2012 budget for students and
scholars was $121,500, all from U.S. sources. Several small, separately funded programs allow
for additional exchanges, including the Muskie graduate fellowship program, the English
teaching assistant program, and the Eurasian undergraduate exchange program.

        PAS advertises exchange programs on its Facebook page and the embassy Web site, but
the Belarusian Government blocks other avenues of publicity. The government also places
roadblocks in the path of Belarusians selected to participate in the International Visitor
Leadership Program by denying passports to some, disapproving leave requests for others, or
even stopping would-be participants at the airport. Nonetheless, PAS works closely with officers
in the mission to find viable candidates for the program. Last year 24 people traveled as
international visitors. [Redacted] (b) (5)



4
    A Department system that allows users to send emails and cables from Microsoft Outlook.
                                             6
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Information Platforms

        PAS maintains an Information Resource Center that is open to the public by appointment.
All PAS staff works out of the center, which had more than 1,000 visitors in FY 2012, plus an
additional 5,000 visitors attending special programs. Staff members focus on promoting freedom
of access to information and teaching host-country audiences and library professionals how to
find accurate information on the United States, in spite of the Belarusian Government’s efforts to
limit Internet freedom.

        PAS extends the reach of its information and public diplomacy efforts via eight InfoUSA
sites located in municipal libraries in Belarus. These sites provide free public access to embassy-
donated resources (books, DVDs, online databases, equipment, periodicals, etc.). They also host
programs by visiting U.S. experts and cultural groups, and sponsor exhibits and book, movie,
and English-conversation clubs. The Belarusian Government occasionally refuses to permit
libraries to accept book donations, prohibits InfoUSA coordinators from attending training
meetings at the Information Resource Center, and requires that every book intended for donation
be weighed individually. Because of the InfoUSA sites’ success in extending the mission’s
outreach efforts in the face of such restrictions, Washington has relaxed some of the normal
requirements for such operations, including the requirement for yearly renewal of memoranda of
understanding between PAS and the InfoUSA sites. The OIG team concurs with this decision.

Grants and Grants Management

        Given its small size, PAS Minsk has a large grants program. In FY 2012 PAS spent
nearly $780,000 on grants, of which $701,000 came from the Assistance to Europe, Eurasia, and
Central Asia (AEECA) budget. PAS used nearly $63,000 in AEECA funds to supplement its
otherwise modest budget ($17,250) to bring in American speakers in policy-relevant fields.

        Most AEECA funds are devoted to the mission’s small grants program, which supports
civil society projects developed by local nongovernmental organizations. In FY 2012 PAS
allocated $695,000 of AEECA funds to the small grants program but was able to spend only
$221,000. [Redacted] (b) (5)




         Files for the small grants program that the OIG team examined were in good order and
contained all relevant documentation. Files for alumni grants and regular public diplomacy
grants were less complete. Some lacked the required grants officer representative designation
letter, others lacked a summary note to the file or other documentation indicating that a program
had taken place.

       Informal Recommendation 2: Embassy Minsk should add missing information to
       alumni and regular public diplomacy grants files in accordance with required rules and
       procedures.




                                       7
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Broadcasting Board of Governors

        Despite transmission reductions brought on by recent sequestration budget cuts, the
Radio Free Europe/Radio Liberty Belarusian Service continues to engage a significant audience
within a closed, authoritarian society. To meet sequestration funding levels, the Broadcasting
Board of Governors (BBG) carried out a research-driven review of transmission effectiveness,
which led to the elimination of 4 hours of repeat shortwave and mediumwave radio in
Belarusian. All original programming hours were preserved on both shortwave and mediumwave
for the legacy audiences. Internet and satellite television are far more popular platforms in
Belarus, and the Radio Free Europe/Radio Liberty Belarusian Service provides programming in
both. This review and transmission reduction was consistent with BBG’s goal 5 (Rationalize
Program Delivery) of its 5-year Strategic Plan, Impact through Innovation and Integration,
which calls for “pragmatic, research-based decisions on which shortwave and mediumwave radio
transmissions and facilities to continue, and which to draw down.”

        There were also salary, travel, and in-house Internet service reductions. These cuts will
affect reporting on human rights abuses in a country that restricts the free flow of information.
By providing reduced reporting, the BBG is not implementing fully goal 4 (Prioritize Support
for Democracy and Countering Pockets of Extremism) in Belarus. The plan directs BBG to focus
on closed, authoritarian societies such as Belarus, while sustaining and selectively expanding
coverage as resources allow. The inspection team found that the decision to make the cuts was
made for budgetary reasons in response to the challenges of sequestration but were executed with
attention to larger strategic aims.

        The Radio Free Europe/Radio Liberty Belarusian Service has moved decisively toward
using Internet and social media sites to maximize distribution of news coverage. [Redacted] (b)
[Redacted] (b) (5)                                                                 (5)



                                                          This initiative supports the BBG’s 5-
year Strategic Plan, goal 6 (Combat Internet Censorship and Jamming) and goal 7 (Elevate and
Expand Social Media Innovation).

        The Radio Free Europe/Radio Liberty Belarusian Service has developed a series of
weekly programs entitled “Liberty in Prisons” designed for prisoners in Belarus, including
political prisoners. The Radio Free Europe/Radio Liberty Belarusian Service also publishes
books on themes related to Western values for distribution in Belarus and organizes formal
presentations after the release of a new book. Embassy Minsk personnel frequently attend these
events and occasionally host them.

        Journalists reporting for Radio Free Europe/Radio Liberty in Belarus are under constant
threat of intimidation, detention, and arrest. Belarus is the only country in Europe that has never
allowed local rebroadcasts of Radio Free Europe/Radio Liberty programs.

Consular Operations

     The public affairs officer serves simultaneously as the consular section chief, devoting
approximately 25 percent of her time to providing American citizens services, adjudicating
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

nonimmigrant visa cases, and managing the consular section. This workload, in addition to the
active public affairs portfolio, is too much for one officer to handle effectively. PAS is not
located on the embassy compound, so the three LE consular staff members are left unsupervised
and unable to receive the public for the majority of every workday.

        Consular interviews, for American citizens as well as nonimmigrant visa applicants, used
to be scheduled on 2 days per week. In recent months competing demands on the officer’s time
have limited interviews to 1 day per week. The amount of officer time available for consular
work is insufficient to handle even American citizens services, which take the highest priority.
The regional consular officer, based in Frankfurt, provides invaluable advice and assistance to
the consular section in Minsk.

Shipment of Controlled Consular Items

      The section keeps the supply of controlled consular items[Redacted] (b) (5)
                        to a minimum, [Redacted] (b) (5)
                                                    Embassy Vilnius resupplies Embassy
Minsk with controlled consular items via properly documented transfers. [Redacted] (b) (5)




Recommendation 3: [Redacted] (b) (5)



         Embassy Minsk does not have classified pouch shipments. The Integrated Logistics
Management System’s Diplomatic Pouch and Mail system will not allow an information
manager to register a classified pouch to be sent to a completely unclassified embassy. The
information manager at Embassy Vilnius could use a manual procedure to bypass the system’s
restrictions.

Recommendation 4: Embassy Vilnius, in coordination with the Bureau of Diplomatic Security,
should develop an appropriate manual method for documenting the shipment via nonprofessional
courier of consular-controlled supplies to Embassy Minsk. (Action: Embassy Vilnius, in
coordination with DS)




                                      9
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

American Citizens Services

        The number of American citizens services cases in Belarus is small, but the work is often
complex and difficult. In FY 2012 the consular section handled 67 passport cases; 15 consular
reports of birth abroad; 1 loss of nationality case; and 26 welfare and whereabouts cases,
including 3 international parental child abduction cases; 1 arrest; 3 cases of assistance to victims
of crime; and 93 notarials.

         American citizens services always take priority over other consular work, and the
Department expects officers to perform this function to the highest standard. Recently, American
citizens in Belarus have complained to the Bureau of Consular Affairs about the difficulty of
obtaining support from the consular section in Minsk. The consul does, however, make
emergency services for American citizens her highest priority. She has done excellent work in
emergency cases, including foiling the kidnapping of an American citizen by repeatedly calling
his cell phone until the kidnappers, alarmed by the U.S. Government label appearing on his
phone’s screen, released him unharmed. However, given the consular officer’s part-time
schedule and limited time for interviews, it is important that the section establish a system that
gives American citizens services the highest priority.

Recommendation 5: Embassy Minsk, in coordination with the Bureau of Consular Affairs,
should establish an appointment protocol that gives American citizens services cases priority
over visa applicants. (Action: Embassy Minsk, in coordination with CA)

Nonimmigrant Visas

        In FY 2012 Minsk adjudicated 876 nonimmigrant visas. The section limits the categories
of these visas it will accept to diplomatic and official visas (other visa requests submitted by
diplomatic note and third country diplomatic note); visas for Belarusians over the age of 70; visa
referrals; visas for embassy staff; and visas for individuals traveling for U.S. Government-
sponsored programs. In 2011 the Bureau of Consular Affairs gave the section permission to
adjudicate student visa renewals; however, the section has never exercised this authority because
the consular chief has no time to take on this additional work.

        The consular officer adjudicated 166 diplomatic and official visas for members of the
Belarusian Government in FY 2012. These cases accounted for 19 percent of the total visa
adjudications in Belarus, all of which were nonimmigrant visas. The consular section also issued
nonimmigrant visas (requested via diplomatic note) for friends and family members who were
visiting Belarusian officials assigned to the United States. In addition, embassy officers
submitted visa referrals for contacts of government officials. As a consequence, virtually the
only Belarusians not inconvenienced by the government’s limits on embassy American staff are
Belarusian officials and their associates.

        The nonimmigrant visa referral program in Minsk is unusually vulnerable to misuse.
Most of the more than 12,000 Belarusians who apply for U.S. visas are required to travel to a
nearby post; Moscow, Kyiv, Vilnius, and Warsaw handle most of these applications. Because of
limited American staffing in the consular section, the Bureau of Consular Affairs rightly limits
the categories of visas that Embassy Minsk can adjudicate. Without a visa referral, a Belarusian

                                        10
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

citizen under the age of 70 effectively cannot get a visa interview in Minsk. This situation creates
pressure on embassy officers to provide referrals in order to obtain a visa interview locally.

         The OIG team examined and analyzed all referrals, which make up 10 percent of the visa
workload, submitted in the past year. The analysis revealed a number of referrals that do not
meet the standards of the worldwide visa referral program (9 FAM Appendix K), including a
referral for a businessman, refused a few months previously in Moscow, who did not meet the
criteria for an interview in Minsk. Many referrals do not indicate how the referral directly
supports U.S. national interests and do not specify the nature and degree of contact the person
making the referral has had with the applicant, as is required by 9 FAM Appendix K. Recently, a
number of B visa 5 referrals have been made for private Belarusian citizens at the request of the
Foreign Ministry, in which the only stated U.S. Government interest was “to build good relations
with the Foreign Ministry.” The worldwide visa referral program specifically states that
“Officers should not refer individuals solely on the basis of a recommendation from a third party,
even a key contact….” The embassy’s referral program would benefit from more careful
scrutiny from the chargé d’affaires.

Recommendation 6: Embassy Minsk should implement procedures to verify that officers
complete visa referrals in accordance with Department of State regulations. (Action: Embassy
Minsk)

           Informal Recommendation 3: Embassy Minsk should provide a hard copy of the
           worldwide visa referral program to all referring officers during their briefing.

Visas Viper

        The embassy holds Visas Viper meetings monthly, and the consular section submits
                                                                         [Redacted] (b) (5)
reports on time each month. [Redacted] (b) (5)                           Given the absence of
other agency or law enforcement personnel at the embassy, the significant constraints on officer
time, and the absence of classified communications at post, this requirement is unlikely to
produce any useful information.

Fraud Prevention Unit

        The fraud prevention unit provides valuable assistance not only to the consular section in
Minsk but also to the consular sections of neighboring posts, which adjudicate most Belarusian
nonimmigrant visas. The unit’s success is particularly commendable given that its activities are
hampered by a law that makes it a criminal offense for anyone other than a government to carry
out investigations in Belarus. If the unit had a travel budget permitting regular visits to
neighboring posts that process Belarusian visas, the LE fraud investigator’s effectiveness would
be further increased.




5
    Temporary visitor visas.
                                            11
                               SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
               Agency                     U.S.           U.S.        Foreign     Total      Total
                                         Direct-      Local-Hire     National    Staff     Funding
                                        Hire Staff      Staff         Staff                FY 2012
 Department of State
 Diplomatic and Consular Programs            3             0              7         10      $527,181
 International Cooperative                   1             0             71         72
 Administrative Support Services                                                           $2,514,200
 Public Diplomacy                            1            0             15          16       $497,100
 Diplomatic Security                         0            0             20          20       $274,380
 Representation                              0            0              0           0        $17,900
 OBO                                         0          N/A            N/A           0       $341,003
 Other – Consular Affairs                    0            0              1           1        $25,450
 Machine Readable Visas
 Other – Consular Affairs                    0             0              2          2        $23,001
 Diplomatic and Consular Programs
 USAID                                       0             0              7          7        —
 AEECA                                       0             0              3          3      $819,000
 (USAID/Department of State)
 Totals                                      5             0           126         131    $5,039,215
Source: Embassy Minsk

Management Operations

        Embassy Minsk provides excellent customer service in a difficult and at times hostile
operating environment. The Belarus-imposed restrictions on U.S. direct-hire staffing make it
difficult for regional support personnel to obtain visas. The embassy must obtain host-country
approval to lease residences and office space, auction and dispose of inventory vehicles, and
travel beyond a 25-mile radius from Minsk. U.S. sanctions prevent the embassy from using some
local companies, including many gasoline stations. The embassy’s Internet provider is on the
European Union’s sanction list, and there is no alternate provider. Belarus is still a cash economy
in most areas, which adds other complications.

       Despite these obstacles, in 2013 the staff received International Cooperative
Administrative Support Services (ICASS) scores above 4 (on a 1–5 scale) in all areas; 26 of 31
categories received scores above 4.5. OIG survey scores were also high.

        The management officer is a good and effective leader. She also serves as the human
resources officer, financial management officer, general services officer, facilities management
officer, and post security officer. She has oversight responsibilities for 93 local employees: 54 in
management, 8 in facilities maintenance, 27 in the guard force, and 4 in security. The large
number of Department taskers often overburdens the embassy and makes compliance with
management controls difficult. The management officer’s most pressing concerns pertain to
security and maintaining qualified and appropriate staffing.
                                       12
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Rightsizing

         The 2011 Embassy Minsk Rightsizing Report does not reflect current operating
conditions. The report projects increased staffing levels of 26 U.S. direct hires by 2015.
Throughout the report, embassy operations were based on the return of American staff. At the
time of the 2008 drawdown, LE staff was verbally assured of continued employment. In
Embassy Vilnius, 48 management LE staff members support 41 U.S. direct hires. In Minsk the
ratio is 54 to 5.

       The current state of bilateral relations makes a large U.S. direct-hire staffing increase
unlikely. Although the next rightsizing review is not scheduled until 2016, it is important that the
embassy conduct the review sooner, given the unrealistic assumptions in the 2011 report.

Recommendation 7: Embassy Minsk, in coordination with the Office of Management Policy,
Rightsizing, and Innovation, should resubmit its rightsizing report based on current operating
conditions, realistic staffing predictions, programmatic and funding goals, and the minimum
number of U.S. direct-hire staff necessary to run the embassy. (Action: Embassy Minsk, in
coordination with MPR/I)

Financial Management

        The financial management office functions well. Five LE staff members support
operations. The staff is cross-trained and attempts to maintain an appropriate separation of
duties, which is difficult in such a small post. Unliquidated obligations are minimal.

Designated Billing Office

          Vendors are sending invoices for goods and services to the procurement unit instead of
the financial management office. Recent Department guidance (13 State 05793) states that
“Consistent with sound internal controls and proper separation of duties, the post financial
management office should function and be identified as the designated billing office for
contracts, purchase orders and purchase card invoices paid at posts. This control appropriately
separates the ordering, receiving, billing, approval, and payment process for posts.”

       Informal Recommendation 4: Embassy Minsk should instruct vendors to send their
       invoices for goods and services to the financial management office for processing.

International Cooperative Administrative Support Services

      There is an ICASS council, but USAID is the only other agency at post. The Department
pays more than 90 percent of the budgeted ICASS costs.

Human Resources

        The human resources office has two LE staff members. The senior human resources
assistant also has regional mission position classification responsibilities for 16 countries. This

                                        13
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

workload is excessive. The Frankfurt Regional Support Center assigned these duties without a
memorandum of understanding with Embassy Minsk.

Recommendation 8: The Bureau of European and Eurasian Affairs, in coordination with the
Frankfurt Regional Support Center, should discontinue using Embassy Minsk’s human resources
assistant to provide regional position classification support to other embassies. (Action: EUR, in
coordination with Frankfurt RSC)

        Embassy Minsk does not receive sufficient regional human resources support. It is
difficult for the small staff to maintain adequate management controls and provide services.
There are numerous out-of-date position descriptions. The last time the Frankfurt Regional
Support Center made a human resources assistance visit to Minsk was in 2010.

Recommendation 9: The Bureau of European and Eurasian Affairs, in coordination with the
Frankfurt Regional Support Center and Embassy Minsk, should identify issues that need
attention, develop a schedule, and perform periodic visits to Embassy Minsk. (Action: EUR, in
coordination with Frankfurt RSC and Embassy Minsk)

       Informal Recommendation 5: Embassy Minsk should revise all locally employed staff
       position descriptions.

Official Residence Expense Employees

        The chargé’s official residence expense staff is excessive. According to the post profile,
the Bureau of European and Eurasian Affairs authorized three official residence expense
employees for the ambassador and two for the DCM. After the 2008 drawdown, the embassy
placed all the ambassador’s employees under the charge’s supervision in conformance with the
Department’s verbal assurance that no LE staff member be terminated. However, because
official residence staff members are not government employees, this decree does not apply to
them.

        Per regulations, the embassy is not allowed to employ official residence expense staff.
The chargé d’affaires has this responsibility. Currently, one of the expense staff members works
at the charge’s residence, and the others are part of a representational team that frequently works
out of the embassy. This arrangement violates Department hiring policies.

Recommendation 10: The Bureau of European and Eurasian Affairs should review the number
of official residence expense employees authorized for Embassy Minsk and adjust staffing levels
accordingly. (Action: EUR)

Local Employee Association

       Association members expressed general satisfaction with their relationship with
management. The chargé and management officer meet with the association quarterly or upon
request.

General Services

                                       14
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       The general services office capably handles customs and shipping, housing, motor pool,
procurement, personal property management, and travel operations. A general services assistant
provides good leadership to 27 LE staff members.

Motor Pool

       Motor pool size exceeds current mission needs, with 17 vehicles and 7 drivers to support
only 5 U.S. direct hires. Per 14 FAM 432.2, the size and composition of the embassy fleet is
based on four criteria: (1) Department staffing, with a 4-to-1 ratio of direct-hire positions per
vehicle as a guideline; (2) USAID staffing, also with a 4-to-1 ratio of professional positions per
vehicle; (3) how vehicles are used in support of the agency administration transportation
requirement; and (4) annual mileage of 12,000 miles per vehicle. Maintaining excess vehicles is
a waste of government time and money.

Recommendation 11: Embassy Minsk should reduce the size of its motor pool according to
Department of State guidelines. (Action: Embassy Minsk)

Real Property

       The condition of the restricted (99-year land lease) government-owned buildings ranges
from poor to good. The 1.2-acre embassy compound includes the chancery, consular annex, and
management annex. The annexes underwent renovations in 2003 and 2006 and are in good
condition. The land lease expires in 2091.

Chancery

         The chancery is in terrible condition. OBO condemned the building in 2008 because of
structural concerns. The chancery has been unoccupied ever since. In 2010 OBO scheduled a $34
million rehabilitation project that it later suspended because of Government of Belarus staffing
restrictions.

       OBO acquired the $1.4 million chancery building in 1992. It had previously served as a
residence and a Soviet military facility. OIG inspection reports from 1994, 2002, and 2006 had
already cited inadequate office space and structural issues. [Redacted] (b) (5)




       [Redacted] (b) (5)




                                                               OBO funded a project to relocate
the main electrical system from the basement of the chancery to the annex, but the project is
stalled because of personnel restrictions. Equipment remains inside awaiting removal. With
staffing restrictions in effect, OBO has not considered a subsequent chancery rehabilitation plan
                                         15
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

or included the embassy in its OBO Top 80 building list. [Redacted] (b) (5)


Recommendation 12: [Redacted] (b) (5)



Recommendation 13: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Minsk and the Bureau of Diplomatic Security, should negotiate with the Government
of Belarus an exception to current staffing restrictions to allow the Bureau of Overseas Buildings
Operations to complete its $34 million chancery rehabilitation project. (Action: EUR, in
coordination with Embassy Minsk and DS)

Recommendation 14: Embassy Minsk should remove nonsensitive equipment located in the
chancery and store it in the warehouse. (Action: Embassy Minsk)

Housing

        Short-term leased housing, which includes the chargé d’affaires residence, four officer
residences, and two temporary duty apartments, is adequate. All leased units are below the OBO
space threshold allowed for Category 3 embassies. 6 OBO approved the lease of the temporary
apartments because of the frequent regional support personnel visits, insufficient modern hotels,
and Belarusian Government’s harassment of U.S. embassy visitors in hotels.

Public Affairs Building Lease

       The leased PAS building is unsuitable for diplomatic operations. The office space
configuration is poor, with LE staff members dispersed among three floors. There are no
elevators, and the bathrooms are inadequate. [Redacted] (b) (5), [Redacted] (b) (7)(F)



       The OBO and DS team that reviewed alternate lease options was horrified by the
condition of the PAS office and recommended that employees vacate the building. The OIG
team agrees that it is in the embassy’s best interest to terminate the lease and relocate the section.

        In 2012 the Government of Belarus notified the embassy that it would not honor the lease
beyond March 2014. This action sparked a Department dispute about the Belarusian
Government’s prerogative to terminate a legal agreement that states the embassy has the right to
renew the lease for two more 10-year periods or until March 14, 2032. The incident also
launched a debate about whether the Government of Belarus is obligated to find alternative space
at the same cost. So far, the Government of Belarus has resisted negotiations on the subject.

        At the embassy’s request, OBO and DS sent a team to find an alternative building to
lease. In April 2013 the team reviewed six lease options and found only one that met OBO and
DS requirements, but at a cost of three times the current lease of $150,000 a year. This price is

6
    A category 3 embassy is a medium-size embassy with an active bilateral relationship with the host country.
                                              16
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

the going commercial rate and is within range for commercial properties of this type. OBO and
DS will also incur additional costs to prepare the building for occupancy.

Recommendation 15: Embassy Minsk, in coordination with the Bureau of Overseas Buildings
Operations, should relocate the public affairs section to another leased office space prior to the
termination of the current lease in March 2014. (Action: Embassy Minsk, in coordination with
OBO)

Personal Property Management

       The personal property management unit does an adequate job of managing inventories
valued at $2.37 million. Shortages are low, at 0.29 percent.

Warehousing

        The short-term leased warehouse is located 30 minutes from the chancery, making LE
staff supervision problematic. The warehouse costs $88,000 annually and is too expensive and
large for current needs. Viable alternatives include combining warehousing with Embassy
Vilnius, using the European Logistical Support Office’s Expedited Logistics Program, 7 leasing a
smaller and less expensive warehouse closer to the embassy compound, and storing inventory on
the embassy compound.

Recommendation 16: Embassy Minsk, in coordination with Embassy Vilnius, should explore
warehousing alternatives, including renting a smaller and less expensive facility. (Action:
Embassy Minsk, in coordination with Embassy Vilnius)

       The warehouse contains many unused items awaiting disposal. In Minsk it is difficult to
have an auction or donate without customs documents or permission from the host government.
In 2008 some inventory and customs records were shredded during the U.S. direct-hire exodus.
The Government of Belarus allows donations only to the Minsk International School.

           Informal Recommendation 6: Embassy Minsk should dispose of or auction unneeded
           inventory items.

Facilities Management

       The regional facilities manager, based in Embassy Vilnius, provides appropriate technical
and consultative support to Embassy Minsk. He makes quarterly visits, which OBO funds.

Equal Employment Opportunity

       Embassy Minsk does not have an EEO counselor. The embassy has requested that the
incoming joint consular/public diplomacy officer take the EEO course before her arrival in
January 2014. In the interim, the embassy uses counselors from neighboring embassies as
required. Embassy Minsk does not have LE staff liaisons to address local staff EEO concerns.


7
    Fast and cost-effective system for providing diplomatic posts with commonly used items.
                                              17
                                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 7: Embassy Minsk should select locally employed staff
       members to serve as Equal Employment Opportunity liaisons for local staff.

Information Management

        With only one American IMO and two LE information technicians providing services, a
number of information management areas are not receiving adequate attention. The IMO also
serves as the backup financial management officer and the backup post security officer and will
soon take on backup consular duties. The section also has one LE mail clerk and one LE
telephone operator. The embassy maintains 11 system servers for 125 users.

        After the forced reduction of American staff in 2008, Embassy Minsk reached agreement
with the information management office at the U.S. Consulate General in Frankfurt for online
remote information systems support. This arrangement does not include travel to Belarus to
provide routine required systems support and has worked well. The services that Frankfurt
provides are outlined in a desktop support service-level agreement, which both parties signed and
the Bureau of European and Eurasian Affairs approved. The most recent agreement expired in
2012 and has not yet been renewed. There are a number of additional services that the IMO is
currently discussing with Frankfurt, such as support for a new consular systems server that will
soon be installed in Minsk, as well as the possible transfer of the BlackBerry and email servers
from Minsk to Frankfurt in order to provide more secure support. The absence of an agreement
places information systems at risk.

Recommendation 17: Embassy Minsk, in coordination with Consulate General Frankfurt and
the Bureau of European and Eurasian Affairs, should establish a new service-level agreement for
information systems support. (Action: Embassy Minsk, in coordination with CG Frankfurt and
EUR)

        Because of the staffing cap and the 2 weeks required to obtain a visa to Belarus, receiving
technical assistance on short notice is not possible. If there is a communications emergency, such
as the temperature control systems failure in 2012 that shut down embassy servers, the IMO is
the only resource available. Embassy Minsk has designated the IMO as backup consular officer
and will send him to Washington for consular training for 2 months during summer 2012.
Although the IMO is currently overextended, it is imperative that the five officers be able to back
one another up, and the backup role is critical for mission operations. The management officer is
the designated backup to the IMO, but that role is limited to nontechnical responsibilities. The
OIG inspection team believes that during the IMO’s planned extended absence for consular
training, the IMO position should be filled by a qualified information officer on a temporary duty
assignment.

       Informal Recommendation 8: Embassy Minsk should arrange for a qualified American
       information officer to serve at the embassy during the planned extended absence of the
       information management officer.

        The embassy does not have an up-to-date information technology contingency plan that
reflects current staffing levels and responsibilities. In accordance with 12 FAM 613.11, the IMO
is responsible for maintaining a current information technology contingency plan that is

                                       18
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

coordinated fully with the embassy emergency action plan. Lack of such documentation puts
embassy operations at risk during a crisis.

Recommendation 18: Embassy Minsk should update and test its information technology
contingency plan in accordance with Department of State regulations. (Action: Embassy Minsk)

       [Redacted] (b) (5)




Recommendation 19: [Redacted] (b) (5)



       Embassy Minsk maintains an inventory of laptop computers that are available to
American and LE staff for long-term use. The general services office is responsible for the laptop
inventory, but there are no standard operating procedures for the overall management of the
program. Since the current IMO’s arrival in August 2012, none of the laptops issued to staff have
been returned for virus and security software updates.

Recommendation 20: Embassy Minsk should establish standard operating procedures for the
distribution, use, and maintenance of laptop computers. (Action: Embassy Minsk)




                                         19
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        U.S. direct hires fully earn their allowances, which include a 25 percent hardship
differential, 15 percent cost of living allowance, 15 percent service needs differential for a third-
year extension, and two rest and recuperation trips for a 2-year assignment. Minsk lacks English-
language pastimes, and staff is subject to monitoring and harassment. These factors can cause
excessive stress. Nevertheless, morale is high.

Schools

       Minsk has a small international school [Redacted] (b) (5), [Redacted] (b) (6)
                                    [Redacted] (b) (5)
                                   and the parents are satisfied with the educational program.

Community Liaison Office

       There is no community liaison office coordinator. The LE staff management assistant
prepares a periodic newsletter that identifies the city of Minsk events and activities.

Medical

        Regional medical visits are infrequent because of the Belarusian Government’s staffing
limitations. A part-time LE staff physician, widely known in the community, provides excellent
care and has extensive access to hospitals and pharmacies in the city.

Employee Association

       The embassy does not currently have an employee association and is considering a
partnership with the association being formed at Embassy Vilnius.




                                        20
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Management Controls
      Management controls for Embassy Minsk are seriously deficient. Although there are
many contributing factors, severe staffing restrictions are at the top of the list.

        The 2012 chief of mission controls statement of assurance noted that a physical security
survey has not been performed within the past 3 years. As discussed earlier in the report, there
                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
are serious facilities,                                           deficiencies that did not appear in the 2012 statement.
The OIG team stressed that, in preparation for the 2013 statement, it is important that the mission
review, document, and establish an improvement plan to resolve current deficiencies.

Travel

        The embassy has not issued tickets for business- or premium-class air travel in the past 2
years. For security reasons, the embassy does issue first class train tickets, which it reports.

Cashiering

        An inspector observed the management officer perform a cash reconciliation, which was
                                                              [Redacted] (b) (5)   [Redacted] (b) (5)
in balance. The cash accountability was recently reduced from                    to                   The cashier
maintains a separate drawer for salary disbursements [Redacted] (b) (5)
These funds are not part of the cashier’s accountability.

         The alternate cashier has a separate cash allotment. His accountability had not been
replenished since the last time he relinquished the responsibility as principal cashier (2 weeks
prior). As a result, he only had the equivalent of 10 cents of local funds available and would have
been unable to perform his duties if the cashier had been unavailable for any reason during that
2-week period.

         Informal Recommendation 9: Embassy Minsk should replenish the alternate Class B
         cashier’s accountability when transitioning the responsibility from the Class B cashier.




                                             21
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Minsk, should undertake a review that focuses on the connection between U.S. policy
objectives in Belarus and American staffing assignments and priorities at Embassy Minsk.
(Action: EUR, in coordination with Embassy Minsk)

Recommendation 2: The Bureau of European and Eurasian Affairs should request that the
Department of State place Embassy Minsk on MINIMIZE. (Action: EUR)

Recommendation 3: [Redacted] (b) (5)



Recommendation 4: Embassy Vilnius, in coordination with the Bureau of Diplomatic
Security, should develop an appropriate manual method for documenting the shipment via
nonprofessional courier of consular-controlled supplies to Embassy Minsk. (Action: Embassy
Vilnius, in coordination with DS)

Recommendation 5: Embassy Minsk, in coordination with the Bureau of Consular Affairs,
should establish an appointment protocol that gives American citizens services cases priority
over visa applicants. (Action: Embassy Minsk, in coordination with CA)

Recommendation 6: Embassy Minsk should implement procedures to verify that officers
complete visa referrals in accordance with Department of State regulations. (Action: Embassy
Minsk)

Recommendation 7: Embassy Minsk, in coordination with the Office of Management Policy,
Rightsizing, and Innovation, should resubmit its rightsizing report based on current operating
conditions, realistic staffing predictions, programmatic and funding goals, and the minimum
number of U.S. direct-hire staff necessary to run the embassy. (Action: Embassy Minsk, in
coordination with MPR/I)

Recommendation 8: The Bureau of European and Eurasian Affairs, in coordination with the
Frankfurt Regional Support Center, should discontinue using Embassy Minsk’s human resources
assistant to provide regional position classification support to other embassies. (Action: EUR, in
coordination with Frankfurt RSC)

Recommendation 9: The Bureau of European and Eurasian Affairs, in coordination with the
Frankfurt Regional Support Center and Embassy Minsk, should identify issues that need
attention, develop a schedule, and perform periodic visits to Embassy Minsk. (Action: EUR, in
coordination with Frankfurt RSC and Embassy Minsk)

Recommendation 10: The Bureau of European and Eurasian Affairs should review the
number of official residence expense employees authorized for Embassy Minsk and adjust
staffing levels accordingly. (Action: EUR)

Recommendation 11: Embassy Minsk should reduce the size of its motor pool according to
Department of State guidelines. (Action: Embassy Minsk)
                                             22
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 12: [Redacted] (b) (5)



Recommendation 13: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Minsk and the Bureau of Diplomatic Security, should negotiate with the Government
of Belarus an exception to current staffing restrictions to allow the Bureau of Overseas Buildings
Operations to complete its $34 million chancery rehabilitation project. (Action: EUR, in
coordination with Embassy Minsk and DS)

Recommendation 14: Embassy Minsk should remove nonsensitive equipment located in the
chancery and store it in the warehouse. (Action: Embassy Minsk)

Recommendation 15: Embassy Minsk, in coordination with the Bureau of Overseas Buildings
Operations, should relocate the public affairs section to another leased office space prior to the
termination of the current lease in March 2014. (Action: Embassy Minsk, in coordination with
OBO)

Recommendation 16: Embassy Minsk, in coordination with Embassy Vilnius, should explore
warehousing alternatives, including renting a smaller and less expensive facility. (Action:
Embassy Minsk, in coordination with Embassy Vilnius)

Recommendation 17: Embassy Minsk, in coordination with Consulate General Frankfurt and
the Bureau of European and Eurasian Affairs, should establish a new service-level agreement for
information systems support. (Action: Embassy Minsk, in coordination with CG Frankfurt and
EUR)

Recommendation 18: Embassy Minsk should update and test its information technology
contingency plan in accordance with Department of State regulations. (Action: Embassy Minsk)

Recommendation 19: [Redacted] (b) (5)



Recommendation 20: Embassy Minsk should establish standard operating procedures for the
distribution, use, and maintenance of laptop computers. (Action: Embassy Minsk)




                                       23
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Minsk should comply with Department of State
requirements for preservation of email records, using TAGS and adjusting employee profiles for
State Messaging and Archive Retrieval Toolset access as necessary to control internal
distribution.

Informal Recommendation 2: Embassy Minsk should add missing information to alumni and
regular public diplomacy grants files in accordance with required rules and procedures.

Informal Recommendation 3: Embassy Minsk should provide a hard copy of the worldwide
visa referral program to all referring officers during their briefing.

Informal Recommendation 4: Embassy Minsk should instruct vendors to send their invoices
for goods and services to the financial management office for processing.

Informal Recommendation 5: Embassy Minsk should revise all locally employed staff
position descriptions.

Informal Recommendation 6: Embassy Minsk should dispose of or auction unneeded
inventory items.

Informal Recommendation 7: Embassy Minsk should select locally employed staff members
to serve as Equal Employment Opportunity liaisons for local staff.

Informal Recommendation 8: Embassy Minsk should arrange for a qualified American
information officer to serve at the embassy during the planned extended absence of the
information management officer.

Informal Recommendation 9: Embassy Minsk should replenish the alternate Class B cashier’s
accountability when transitioning the responsibility from the Class B cashier.




                                      24
                         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                    Name     Arrival Date
Chargé d’affaires                          Ethan Goldrich         07/2012
Political/Economic/Press Officer        Christopher Panico        10/2010
Chiefs of Sections:
 Management/Security                      Andrea Gastaldo        09/2012
 Public Affairs/Consular                       Carrie Lee        07/2010
 Information Management Officer               Nijay Saini        08/2012




                                   25
                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AEECA             Assistance to Europe, Eurasia, and Central Asia

BBG               Broadcasting Board of Governors

DCM               Deputy chief of mission

Department        U.S. Department of State

EEO               Equal Employment Opportunity

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

ICASS             International Cooperative Administrative Support Services

IMO               Information management officer

LE                Locally employed (staff)

OBO               Bureau of Overseas Buildings Operations

OIG               Office of Inspector General

PAS               Public affairs section

RSO               Regional security office

TIP               Trafficking in persons

USAID             U.S. Agency for International Development




                             26
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
      Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
